OFFICE OF THE
SECRETARY
Top Management
Challenges Facing
the Department
of Commerce

FINAL REPORT NO. OIG-14-002
NOVEMBER 25, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                      Washington, D.C. 20230




                                November 25, 2013

INFORMATION MEMORANDUM FOR THE SECRETARY

                   '1'~<1.3~ 

FROM:              Todd J. Zihser

SUBJECT:           Top Management Challenges Facing the Department
                   of Commerce in Fiscal Year 2014

Enclosed is our report on the Department of Commerce's top management
challenges for fiscal year (FY) 2014. Departmental programs were substantially
affected by continued fiscal tightening and sequestration. The five top management
challenges we reported last year remain the most critical issues facing the
Department; however, we have realigned our discussion:

   • 	 Strengthen Commerce Infrastructure to Support the Nation's Economic
       Growth. Several bureaus, which hold pivotal roles in providing the
       infrastructure for economic growth, face a variety of challenges. The
       International Trade Administration plays a leading role as one of 16
       executive departments and federal agencies charged, along with the nation,
       with supporting the National Export Initiative's goal to double 2009 U.S.
       export levels by the end of 2014. The Bureau of Industry and Security (BIS)
       has the task of administering and enforcing controls of dual-use exports,
       which are expected to increase significantly as a result of the current Export
       Control Reform Initiative. Beginning in October 2013, new rules will
       transfer many items from the U.S. Munitions List to the Commerce Control
       List and BIS jurisdiction. The U.S. Patent and Trademark Office must
       implement remaining provisions of the 2011 America Invents Act-and
       faces several difficulties in reducing backlogs of applications, requests, and
       appeals. Due to limited remaining spectrum capacity, the National
       Telecommunications and Information Administration (NTIA) must open up
       more commercial wireless broadband spectrum and oversee development of
       a broadband network for public safety.
    •	 Strengthen Oversight of National Oceanic and Atmospheric
       Administration (NOAA) Programs to Mitigate Potential Satellite Coverage
       Gaps, Address Control Weaknesses in Accounting for Satellites, and
       Enhance Fisheries Management. Environmental satellites are essential to
       providing weather forecasting data used to track severe storms and predict
       climate. However, cost overruns and schedule slippage may delay the
       replacement of two of NOAA’s most vital satellite systems—which, at more
       than 20 percent of the Department’s 2014 budget request, are its largest
       investments. Separately, during FY 2012, an independent accounting firm
       noted several control weaknesses in NOAA’s accounting for satellites,
       which must be addressed to ensure integrity, accountability, and
       transparency. In addition, NOAA must respond to challenges to its fisheries
       oversight. Commercial and recreational fishing have a value of more than $5
       billion and support more than 1 million jobs. However, NOAA must balance
       the interests of the fishing community with conservation concerns.

    •	 Continue Enhancing Cybersecurity and Management of Information
       Technology Investments. Our review of events surrounding the Economic
       Development Administration’s (EDA’s) cyber incident, which stemmed
       from a perceived December 2011 massive malware infection, found that
       critical incident response decisions were based on inaccurate information—
       and that deficiencies in the Department’s incident response program
       impeded EDA’s incident response. The Department has several enterprise
       cybersecurity initiatives underway to address mandates from the Office of
       Management and Budget (OMB). Timely implementation of these initiatives
       is crucial to the Department’s cybersecurity program. While OMB increased
       the authority of federal CIOs to manage major IT investments, 1 the
       Department CIO’s responsibility to oversee certain satellite IT investments
       has been diminished. Overall, cost growth and schedule delays of the
       Department’s investment activity exceed the federal government average.
       More than one-fifth of the Department’s high-risk IT investments are 30
       percent or more behind schedule.

    •	 Exercise Strong Project Management Controls Over 2020 Census
       Planning to Contain Costs. By mid-decade, the Census Bureau must
       analyze 2020 decennial design alternatives and make timely design decisions
       based on the results of its research and testing phase. After conducting
1
  See OMB, December 9, 2010. 25 Point Implementation Plan to Reform Federal Information
Technology Management. Washington, DC: OMB, 28. See also OMB, August 8, 2011. Chief
Information Officer Authorities, M-11-29. Washington, DC: OMB.


                                            2
         several reviews of the Bureau’s approach and progress toward the planning
         and development of the 2020 decennial design, we noted significant
         schedule slippage in key research and testing programs. If continued, missed
         deadlines might result in a design similar to last decade’s design, which
         included a massive, costly end-of-decade field operation. In addition, the
         Bureau must resolve human capital issues related to maintaining a workforce
         with requisite skills and capabilities. Further, it must complete timely
         research for making evidence-based design decisions, as well as implement a
         stable, agile field-testing strategy.

      •	 Continue to Foster a Culture of Management Accountability to Ensure
         Responsible Spending. As the government experiences an extended period
         of tightened budgets, it is imperative to foster a culture of management
         accountability. OIG operates a complaint hotline for employees and the
         public to submit information about alleged wrongdoing, misconduct, or
         mismanagement. OIG’s determination to audit, investigate, or provide the
         complaint information to Departmental or bureau management for
         appropriate action helps to instill a culture of ethical conduct and ensure that
         spending is appropriate, complies with laws and regulations, and promotes
         investments with long-term benefits. The Department must continue to
         adequately address complaints of mismanagement of federal resources. In
         addition, the lack of centralized financial reporting capability impedes the
         Department’s ability to oversee and manage Department-wide financial
         activities. While the Department has developed plans to replace legacy
         systems, significant financial reporting challenges remain. Other priorities
         include stricter oversight of the Department’s annual acquisition of
         approximately $2.4 billion in goods and services and the need for
         appropriately qualified staff to oversee these acquisitions. Finally, an
         additional challenge is to strengthen bureaus’ oversight of Departmental
         programs that award grants or cooperative agreements due to the potential
         for misuse of federal funds by award recipients and to maintain
         professionally certified grant managers.

We remain committed to keeping the Department’s decision-makers informed of
problems identified through our audits and investigations, so that timely corrective
actions can be taken. A copy of this report and the Department’s response to it
(which appears as an appendix) will be included in the Department’s Performance
and Accountability Report, as required by law. 2

2
    31 U.S.C. § 3516(d).


                                             3
We appreciate the cooperation received from the Department, and we look forward
to working with you and the Secretarial Officers in the coming months. If you have
any questions concerning this report, please contact me at (202) 482-4661.
cc:	 Patrick D. Gallagher, Acting Deputy Secretary of Commerce
     Justin Antonipillai, Acting General Counsel
     Simon Szykman, Chief Information Officer
     Ellen Herbst, Chief Financial Officer and Assistant Secretary
       for Administration

     Bruce Andrews, Chief of Staff to the Secretary

     Operating Unit Heads

     Operating Unit Audit Liaisons





                                         4
 
    U.S. DEPARTMENT OF COMMERCE                                                                                           OFFICE OF INSPECTOR GENERAL


Contents
Challenge 1: Strengthen Commerce Infrastructure to Support the Nation’s Economic
Growth ........................................................................................................................................... 1
    Promoting U.S. Exports While Protecting National Security Interests ........................................................... 1
    Enhancing Economic Growth Through Intellectual Property and Wireless Initiatives ................................ 4
Challenge 2: Strengthen Oversight of National Oceanic and Atmospheric Administration
(NOAA) Programs to Mitigate Potential Satellite Coverage Gaps, Address Control
Weaknesses in Accounting for Satellites, and Enhance Fisheries Management .................... 7
    Enhancing Weather Satellite Development and Mitigating Potential Coverage Gaps .................................. 8
    Addressing Material Weakness over Satellite Accounting ................................................................................ 11
    Enhancing Fisheries Management ............................................................................................................................ 12
Challenge 3: Continue Enhancing Cybersecurity and Management of Information
Technology Investments ............................................................................................................ 15
    Establishing a Robust Capability to Respond to Cyber Incidents .................................................................... 16
    Continuing Sustainable Implementation of Enterprise Cybersecurity Initiatives ......................................... 17
    Preserving the CIO’s Oversight Responsibility of Satellite-Related IT Investments ................................... 19
    Continuing Vigilant Oversight of IT Investments ................................................................................................ 20
    Maintaining Momentum in Consolidating Commodity IT to Cut Costs........................................................ 21
Challenge 4: Exercise Strong Project Management Controls over 2020 Census
Planning to Contain Costs .......................................................................................................... 23
    Ensuring Timely Design Decision Making .............................................................................................................. 24
    Focusing on Human Capital Management, Timely Research, and Testing Implementation ...................... 25
Challenge 5: Continue to Foster a Culture of Management Accountability to Ensure
Responsible Spending ................................................................................................................. 30
    Responding to Concerns of Mismanagement and Ethical Violations .............................................................. 31
    Implementing Stricter Controls over Funds ......................................................................................................... 33
    Modernizing the Enterprise Financial Management System to Strengthen Financial Oversight ............... 34
    Strengthening Controls over High-Risk Contract Actions and Developing
    the Acquisition Workforce....................................................................................................................................... 35
    Addressing Grant Management Issues ................................................................................................................... 37
Acronym List ............................................................................................................................... 40
Appendix A: Related OIG Publications ..................................................................................... 42
Appendix B: Comparison Between FY 2013 and FY 2014 Challenges ................................. 44
Appendix C: Management Response to OIG Draft Report .................................................... 45
  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Challenge 1: 

Strengthen Commerce Infrastructure to Support the Nation’s Economic Growth

As reflected in the President’s FY 2014 proposed budget, the Department is a key player in the
federal government’s efforts to stimulate economic growth and job creation. Several bureaus,
which hold pivotal roles in providing the infrastructure for economic growth, face a variety of
challenges.

The International Trade Administration (ITA)—along with 15 other federal government
departments and agencies, as well as the nation—is not on track to meet the National Export
Initiative’s goal of doubling U.S. export levels within 5 years, while the Bureau of Industry and
Security (BIS) is planning for the increased licensing and enforcement workload resulting from
the Export Control Reform Initiative. The U.S. Patent and Trademark Office (USPTO), in its
mission to foster innovation through high-quality patent and trademark examination, must
implement several remaining provisions of the 2011 America Invents Act and faces several
difficulties in reducing backlogs associated with initial patent applications, requests for continued
examination, and appeals. Due to the increase in spectrum demand and the limitations of
available spectrum capacity, the National Telecommunications and Information Administration
(NTIA) must increase spectrum access for commercial wireless broadband use—via sharing
between federal and commercial users or sale of spectrum for commercial use—while
protecting federal missions and overseeing development of a broadband network for public
safety. In addition to these major initiatives, the Department’s National Institute of Standards
and Technology (NIST) will face the challenge of implementing the National Network for
Manufacturing Innovation,1 if Congress authorizes this program to innovate and expand
advanced manufacturing technologies and processes to bring manufacturing jobs back to the
United States.

We have identified two key areas for management attention:
•      Promoting U.S. exports while protecting national security interests
•      Enhancing economic growth through intellectual property and wireless initiatives

Promoting U.S. Exports While Protecting National Security Interests

Promotion and regulation of U.S. exports are two critical missions of the Department. For FY
2014, the Department has requested $632 million to support agencies that provide export
promotion and regulation. ITA’s U.S. and Foreign Commercial Service provides a broad range
of services and counseling to U.S. exporters while other ITA business units—such as Market
Access and Compliance, Import Administration, and Manufacturing and Services—enforce trade
agreements and protect domestic industries such as manufacturing and textiles. BIS provides
export licensing and enforcement programs to ensure that trade in dual-use exports2 is
                                                            
1
  This $1 billion Presidential proposal brings together industry, colleges and universities, and all levels of
government to support small- and medium-sized enterprises and start-ups in advanced manufacturing, workforce
development, and the transfer of promising new processes and technologies to the marketplace.
2
  Dual-use refers to exports that have both civilian and military applications.


FINAL REPORT NO. OIG-14-002                                                                                      1
  U.S. DEPARTMENT OF COMMERCE                                                                                                           OFFICE OF INSPECTOR GENERAL

consistent with national security interests. In FY 2014, ITA and BIS will undertake major
activities that have potential long-term impact on the U.S. economy.

Implementing the National Export Initiative Under a New Organizational Structure

ITA plays a leading role as one of 16 executive departments and federal agencies that support
the National Export Initiative (NEI), which was formalized by executive order in March 2010.
The NEI aims to double 2009 U.S. export levels by the end of 2014—from $1.57 trillion to
$3.14 trillion3—and, in turn, help grow the nation’s $16.6 trillion economy.4 In 2012, the value
of U.S. exports grew to a high of $2.2 trillion, representing 13.9 percent of gross domestic
product. In the second quarter of 2013, U.S. exports equaled $564 billion, a quarterly record
(see figure 1). However, as shown in figure 1, actual export growth has recently fallen below
the expected rate of export growth needed to double U.S. exports by the end of 2014. This
will require ITA, along with other federal agencies, to intensify their efforts to promote U.S.
exports to meet the NEI’s goal.

              Figure 1. Export Growth—Expected Versus Actual (in Current Dollars)
                                                                    3.5
                                                                                                                                          3.17
                           Value of U.S. Exports (in trillions $)




                                                                    3.0                                                       2.76
                                                                                                                2.40
                                                                    2.5                           2.08
                                                                                    1.81
                                                                    2.0                                                2.21
                                                                                                         2.11
                                                                    1.5                    1.84
                                                                            1.57
                                                                    1.0
                                                                    0.5
                                                                    0.0
                                                                           2009        2010          2011          2012          2013        2014
                                                                                                            Year

                                                                          Expected Value of U.S. Exports               Actual Value of U.S. Exports

                      Source: OIG analysis of Census Bureau export data

To support many of its priorities,5 the NEI called for enhanced collaboration among federal
trade agencies and strategic partnerships with state, local, and other trade organizations. In our
                                                            
3
  See Export Promotion Cabinet, September 2010. Report to the President on the National Export Initiative: The Export
Promotion Cabinet’s Plan for Doubling Exports in Five Years. Washington, DC: Trade Promotion Coordinating
Committee, 1.
4
  DOC Bureau of Economic Analysis. National Income and Product Accounts Tables: Table 1.1.5 Gross Domestic Product
[Online]. http://www.bea.gov/iTable/iTable.cfm?ReqID=9&step=1#reqid=9&step=1&isuri=1 (revised July 31, 2013).
Dollar amounts in this section are in current dollars.
5
  The eight NEI priorities are (1) exports by small and medium-sized enterprises, (2) federal export assistance, (3)
trade missions, (4) commercial advocacy, (5) increasing export credit, (6) macroeconomic rebalancing, (7) reducing
barriers to trade, and (8) export promotion of services.


FINAL REPORT NO. OIG-14-002                                                                                                                                   2
  U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL

2012 review of the U.S. Export Assistance Centers we noted that, while protections of client
data inhibited information sharing and guidance on collaboration was limited, fostering
partnerships with other federal agencies such as the Small Business Administration and the
Export–Import Bank can enhance service to exporters.6 In FY 2014, ITA will be challenged to
improve and build on the coordination and partnership efforts developed to date.

ITA’s challenge is to sustain the momentum to increase exports to try to meet the goal of the
NEI—and it must do so while, at the same time, managing an internal reorganization. Effective
October 1, 2013, the Department consolidated ITA’s four existing business units into three to
eliminate overlapping functions and streamline operations. ITA states that the functional
realignment will consolidate regional expertise, strengthen industry expertise and strategic
partnerships, and consolidate trade agreement compliance and trade law enforcement.

Addressing Export Control Reform Changes Through Enhanced Licensing and Enforcement Activities

The task of administering and enforcing dual-use export controls falls on the Bureau of
Industry and Security. In FY 2012, BIS processed more than 23,000 license applications for
exports valued at more than $200 billion.7 Future trade in controlled dual-use exports is
expected to increase significantly as a result of the current Export Control Reform Initiative.
Launched by the Administration in 2010, the initiative aims to streamline the country’s export
control system and facilitate U.S. export of high-tech goods while protecting U.S. national
security interests. In the initiative’s first phase, BIS worked with federal partners to reconcile
and revise export control policies and regulations. Currently, the bureau is also collaborating
with its federal partners to revise the lists of controlled dual-use items (Commerce Control
List) and munitions (U.S. Munitions List), which will result in increased trade for less-sensitive
munitions. These less-sensitive munitions will transfer from the U.S. Munitions List to the
Commerce Control List and BIS jurisdiction, while the Department of State maintains
jurisdiction over more sensitive munitions.

Beginning October 15, 2013, new rules will transfer the first of many items from the U.S.
Munitions List to the Commerce Control List in a process expected to continue throughout FY
2014.8 To address the increase of licensable items under its jurisdiction, BIS has requested
additional resources in its FY 2014 budget for its licensing and enforcement units. To complete
its mission, BIS’ challenge is to coordinate with its federal partners, such as the Departments of
Defense and State, to revise federal export control regulations to effectively implement export
control reform. Such external collaboration can be difficult and time consuming. While BIS is
planning and managing its new munitions licensing responsibilities, its current export regulations
must continue to be administered and enforced. Finally, BIS will be challenged to enhance its
existing outreach and enforcement activities delivered through exporter counseling,
                                                            
6
  U.S. Department of Commerce Office of Inspector General, November 30, 2012. U.S. Export Assistance Centers
(USEACs) Could Improve Their Delivery of Client Services and Cost Recovery Efforts, OIG-13-010-I. Washington, DC:
DOC OIG.
7
  Fergusson, I.F., and Kerr, P.K. April 19, 2013. The U.S. Export Control System and the President’s Reform Initiative,
R41916. Washington, DC: Congressional Research Service, 3. 

8
  Bureau of Industry and Security, April 16, 2013, Revisions to the Export Administration Regulations: Initial 

Implementation of Export Control Reform, Federal Register 78, no. 73: 22660.



FINAL REPORT NO. OIG-14-002                                                                                               3
  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

teleconferences, and seminars to educate its stakeholders (primarily first-time dual-use
exporters) about the detailed changes to the export regulations. Outreach and preventive
enforcement will be critical to ensuring that all dual-use exporters understand and follow the
revised regulations and avoid unintentional violations.

Enhancing Economic Growth Through Intellectual Property and Wireless Initiatives

Reducing Patent Application Backlogs and Improving Processing Times While Maintaining Quality

USPTO, as the authority for reviewing and adjudicating all patent and trademark applications,
must continue to focus on the challenge of reducing the time applicants wait before their patent
applications or appeals are reviewed. The agency has stated that the passage and
implementation of the America Invents Act (AIA), enacted on September 16, 2011, would allow
the agency to process applications faster, reduce the patent backlog, increase patent quality
through expedited patent challenges, and improve examiner recruitment and retention.

The AIA included fundamental revisions to patent laws and USPTO practices, such as moving to
a “first inventor to file” patent process to align the U.S. system with others worldwide, granting
the agency authority to set and retain fees to ensure it has sufficient resources for its
operations, and establishing satellite offices. As of August 20, 2013—in the nearly 2 years since
the AIA’s enactment—USPTO has successfully implemented on time 28 of the 35 provisions
they were responsible for; 5 are not yet due, and 2 are overdue.

As USPTO completes its implementation of the remaining AIA provisions, the agency’s recent
efforts to address its application and appeal backlogs and related pendency issues have yielded
mixed results. Both the backlog and pendency for patent applications decreased in FY 2013 (see
figure 2a). Between October 2009 and September 2013, the patent backlog decreased from
approximately 720,000 unexamined new applications to approximately 585,000. The patent
appeals backlog—which we reported on in our 2012 audit9—has stabilized and, as of May 2013,
stood at approximately 26,000, still more than twice the size of the backlog in October 2010.
However, USPTO’s backlog for requests for continued examination (RCE) has grown from
17,700 applications in October 2009 to approximately 78,000 in September 2013 (see figure
2b), an increase of more than 340 percent. As a consequence, during the same period, the
average waiting time between filing an RCE and receiving an initial decision has grown from 2.2
to 7.8 months (see figure 2b).




                                                            
9
 U.S. Department of Commerce Office of Inspector General, August 10, 2012. USPTO's Other Backlog: Past
Problems and Risks Ahead for the Board of Patent Appeals and Interferences, OIG-12-032-A. Washington, DC: DOC
OIG.


FINAL REPORT NO. OIG-14-002                                                                                     4
  U.S. DEPARTMENT OF COMMERCE                                                                                                           OFFICE OF INSPECTOR GENERAL

                    Figures 2a and 2b. Patent Backlog and Pendency Decreases (2a) and 

                        RCE Backlog and Pendency Increases (2b), FYs 2010–2013a


                                    Figure 2a                                                                                   Figure 2b
               40                                                         800,000                            9                                                            120,000

               35                                                         700,000                            8
                                                                                                                                                                          100,000
               30                                                         600,000                            7

                                                                                                             6                                                            80,000
               25                                                         500,000




                                                                                    Applications




                                                                                                                                                                                      Applicat ions
     Mont hs




                                                                                                   Mont hs
                                                                                                             5
               20                                                         400,000                                                                                         60,000
                                                                                                             4
               15                                                         300,000
                                                                                                             3                                                            40,000
               10                                                         200,000
                                                                                                             2
                                                                                                                                                                          20,000
               5                                                          100,000                            1
               0                                                          0                                  0                                                            0



                     Patent  Backlog           Patent  Pendency without RCEs                                     RCE  Backlog   RCE  Pendency from  Filing  to Next  Office  Action


 Source: USPTO data
 a
   Graphs present full FY data from October 2010 to September2013.

To address the substantial increases in the RCE backlog and average waiting time, one action
USPTO initiated was a series of outreach efforts to identify why applicants file RCEs. In June
2013, OIG initiated an audit to evaluate the reason for the increase in the RCE backlog and
review USPTO’s efforts to address the issue.

As it works to reduce its patent backlog and pendency (see figure 2a), USPTO’s challenge is to
ensure that the quality of its patent examination process is not adversely affected and to avoid
requiring applicants and the public to file unnecessary and costly challenges to examiners’
decisions.

Increasing Spectrum Usage Efficiency

Radio frequency spectrum provides an array of wireless communications services critical to the
U.S. economy and supports a variety of government functions.10 Spectrum capacity is needed to
deliver the wireless broadband that stimulates economic growth, spurs job creation, and boosts
the nation’s capabilities in education, healthcare, homeland security, and other areas.11 In June
2010, the President requested that 500 megahertz (MHz) of federal or nonfederal spectrum be
freed up for commercial wireless broadband. In response, NTIA announced in March 2012 that
the federal government intends to repurpose 95 MHz of prime spectrum for commercial use.


                                                            
10
   U.S. Government Accountability Office, April 2011. Spectrum Management: Preliminary Findings on Federal
Reallocation Costs and Auction Revenues, GAO-13-563T. Washington, DC: GAO, 1. 

11
   President’s Council of Advisors on Science and Technology, July 2012. Realizing the Full Potential of Government-

Held Spectrum to Spur Economic Growth. Washington, DC: President’s Council of Advisors on Science and 

Technology, 11.





FINAL REPORT NO. OIG-14-002                                                                                                                                                                           5
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

However, the $18 billion that NTIA estimates it will cost to relocate existing federal users to
other parts of the spectrum12 could make this cost prohibitive.

Representing a continuation and expansion of the President’s June 2010 directive, a July 2012
report by the President’s Council of Advisors on Science and Technology recommended that
up to 1,000 MHz of federal spectrum be made available for a “shared use spectrum
superhighway” between federal agencies and commercial providers.13 Recent technology
advances will make such shared-use architecture feasible in the near future. NTIA collaborated
with industry and government representatives, forming working groups of the Commerce
Spectrum Management Advisory Committee. These working groups, along with the Federal
Communications Commission and the White House, have made some progress toward finding
ways to share spectrum with commercial users. However, many challenges—such as lack of
incentive for commercial providers to bid for shared spectrum (that is, the cooperative use of
common spectrum by accessing the same frequencies in different geographical areas or at
different times), revenue generation, and rights-of-use issues—must be addressed to make this
effort a possibility. Another challenge NTIA faces in its handling of federal spectrum involves
the accuracy of data submitted by federal agencies on their requirements for and their usage of
spectrum. NTIA’s efforts to address its challenges through the implementation of the Federal
Spectrum Management System, a new data management system that uses IT applications to
make the spectrum more effective and efficient, has encountered schedule delays and cost
increases.

Overseeing the First Responder Network Authority and the Implementation of the Public Safety
Broadband Network

On February 22, 2012, the President signed the Middle Class Tax Relief and Job Creation Act.
This reallocated the “D-Block” spectrum and authorized $7 billion in funding for the
establishment of an interoperable nationwide Public Safety Broadband Network (PSBN). The
law requires NTIA to establish an independent authority called First Responder Network
Authority (FirstNet) to oversee the existing public-safety spectrum and the establishment and
deployment of the PSBN. FirstNet, which held its first meeting in September 2012, has started
to implement and establish an organizational structure, hire staff to handle its day-to-day
operations, and establish controls (for example, to develop its rules and regulations). FirstNet
faces several challenges in establishing the PSBN, including (1) fostering cooperation among
various state and local public-safety agencies, (2) integration of seven Broadband Technology
Opportunities Program (BTOP) grants funded by the American Recovery and Reinvestment
Act of 2009 into the PSBN, and (3) the physical construction of a nationwide long-term
evolution network.




                                                            
12
     Ibid, iv, vi.
13
     U.S. Government Accountability Office, Spectrum Management, 1.


FINAL REPORT NO. OIG-14-002                                                                        6
  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Challenge 2: 

Strengthen Oversight of National Oceanic and Atmospheric Administration
(NOAA) Programs to Mitigate Potential Satellite Coverage Gaps, Address
Control Weaknesses in Accounting for Satellites, and Enhance Fisheries
Management

NOAA plays a critical role in protecting life and property, as well as supporting national
economic vitality. To achieve these missions, NOAA must overcome the challenges associated
with the acquisition, accounting, and operation of weather satellites and has to balance the
competing interests concerning marine fisheries.

Environmental satellites are essential components in weather forecasting. They provide data
used to track severe storms and predict climate. However, long-standing cost overruns and
schedule delays—as well as the aging of the current constellation of satellites—are threatening
adequate coverage of these critical functions. Cost increases and budget shortfalls may delay
the development and launch of two of NOAA’s most vital satellite systems, the Joint Polar
Satellite System (JPSS) and the Geostationary Operational Environmental Satellite-R Series
(GOES-R). These two programs are the Department’s largest investments, accounting for more
than 20 percent of its 2014 budget request. In response to last year's Top Management
Challenges, NOAA improved its communication with stakeholders, as well as the efficacy of
satellite program leadership and staffing, and developed a comprehensive polar satellite data gap
mitigation plan. In addition, NOAA warned that the GOES-R program is at a stage in its
development where launch delays cannot be avoided if its budget is reduced.

The satellites program also faces accounting challenges. During FY 2012, an independent
accounting firm noted several control weaknesses at NOAA related to accounting for satellites.
The transactions in question originate in a NOAA line office where personnel do not have
sufficient financial accounting experience and training, and the bureau’s Finance Office does not
have sufficient oversight of the accounting for satellites. Further, satellite accounting involves
significant contracts and arrangements with contractors and government agencies.

Finally, NOAA must respond to challenges to its fisheries oversight. Vital to our ocean
economy, commercial and recreational fishing have a value of more than $155 billion and
support more than 28 million jobs. But coastal development, pollution, overfishing, and
destruction by invasive species are contributing to the decline in the health of our oceans and
coastal ecosystems. NOAA must balance the interests of the fishing community with
conservation concerns regarding long-term sustainability.

 




FINAL REPORT NO. OIG-14-002                                                                       7
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

To strengthen oversight of NOAA programs, we have identified three areas for management
attention:
•      Enhancing weather satellite development and mitigating potential coverage gaps
•      Addressing material weakness over satellite accounting
•      Enhancing fisheries management

Enhancing Weather Satellite Development and Mitigating Potential Coverage Gaps

Managing risks in the acquisition and development of the next generation of environmental
satellites is a continuing challenge for the Department. In February 2013, GAO added
“Mitigating Gaps in Weather Satellite Data” to its high-risk list.14 The two most prominent
programs,15 the Joint Polar Satellite System (JPSS) and the Geostationary Operational
Environmental Satellite-R series (GOES-R), together account for one-third of NOAA’s FY 2014
budget request. They are also the largest investments in the Department, accounting for more
than 20 percent of the Department’s $8.6 billion budget proposal.

JPSS evolved from a predecessor program fraught with cost overruns and schedule delays.
NOAA’s JPSS program uses the National Aeronautics and Space Administration (NASA) as its
acquisition agent, leveraging that agency’s procurement and systems engineering expertise—an
arrangement based on previous partnerships between the two agencies. In its FY 2014 budget
submission, NOAA requested $824 million and reported that the JPSS program, running
through 2025, would cost $11.3 billion. The first JPSS-developed satellite (JPSS-1) is scheduled
for launch no later than the second quarter of FY 2017. GOES-R, with scope and importance
comparable to JPSS, is experiencing development and budgetary challenges that could delay the
launch of its first satellite from the first to the second quarter of FY 2016. NOAA requested
$955 million for FY 2014 for the GOES-R series of satellites that will provide uninterrupted
short-range severe weather warning and “now-casting” capabilities through 2036. With four
satellites (the GOES-R, -S, -T, and -U), the program is estimated to cost $10.9 billion over the
course of its life cycle.

The satellites will provide data and imagery for weather forecasting—including severe-storm
tracking and alerting—and the study of climate change. NOAA’s environmental satellite
operations and weather forecasting are designated as primary, mission-essential functions of the
Department because they help lead and sustain the nation during severe weather events.
However, because of cost overruns, schedule delays, and the aging of NOAA’s current
constellation of satellites, NOAA has had to take steps to mitigate potential coverage gaps for
these critical assets.

 



                                                            
14
   U.S. General Accountability Office, February 2013. High-Risk Series: An Update, GAO-13-283. Washington, DC:
GAO, 155-160.

15
   Other satellite acquisitions include Jason-3, which will measure sea surface height, and Deep Space Climate 

Observatory, which will provide advance warnings of solar storms affecting Earth. 



FINAL REPORT NO. OIG-14-002                                                                                        8
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

Reducing Program Risks Associated with JPSS-1 Development

Strong program management and close oversight of these programs are needed to reduce risks
associated with their development. For JPSS, this requires that the program successfully execute
to cost, schedule, and performance baselines established August 1, 2013. The program must
also ensure that its flight and ground segments’ schedules are fully integrated. JPSS must also
effectively coordinate with the newly established NOAA Polar Free Flyer program, the planned
NASA climate instrument project,16 and NOAA’s data distribution and archive systems.

NOAA needs to mitigate any degradation to weather forecasting capabilities during polar-orbit
data coverage gaps through efficient use of supplemental funding it received as part of the
Disaster Relief Appropriations Act, 2013. The bureau has developed a mitigation plan for polar
satellite coverage gaps, but obtaining support from other reliable sources—one of its options—
could be time-consuming. 17 NOAA should ensure that the mitigation plan is executed before
the November 2016 design-life end of Suomi National Polar-orbiting Partnership (NPP), a risk-
reduction satellite launched in October 2011 that is flying the first versions of JPSS sensors.

Over the course of the JPSS program, we have analyzed Suomi NPP and JPSS schedules to
assess potential gaps in weather forecast data. Consistent with our September 2012 JPSS audit
report,18 we continue to project a 10–16-month gap between Suomi NPP’s end of design life
and when JPSS-1 satellite data become available for operational use (see figure 3). NOAA’s
medium-range weather forecasting (3–7 days) could be significantly degraded during the period
of time JPSS data are unavailable.

 




                                                            
16
   With the FY 2014 President’s Budget, NOAA removed five instruments from the JPSS budget and created a
separate program, Polar Free Flyer, to develop and launch three of the instruments. It transferred to National
Aeronautics and Space Administration (NASA) responsibility for two climate instruments. The JPSS ground system
will still support the Polar Free Flyer satellite, and the two NASA climate instruments will be accommodated on
the JPSS-2 satellite if their development schedules align with the satellite’s development.
17
   For example, using new or different data from the European Organization for the Exploitation of Meteorological
Satellites or Japan Aerospace Exploration Agency requires establishing agreements, implementing communication
links, updating data processing systems, and assimilating the data.
18
   U.S. Department of Commerce Office of Inspector General, September 27, 2012. Audit of the Joint Polar Satellite
System: Continuing Progress in Establishing Capabilities, Schedules, and Costs Is Needed, OIG-12-038-A. Washington,
DC: Department of Commerce OIG.


FINAL REPORT NO. OIG-14-002                                                                                       9
  U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL

     Figure 3. Potential Continuity Gaps for Polar-Satellite Operational Forecast Data




      Source: OIG analysis of NOAA data

Reducing Program Risks Associated with GOES-R Development

The GOES-R program must continue to manage its development to meet requirements within
its long-standing baselines. The program also needs to ensure sufficient ground system,
instrument, and spacecraft development maturity to enter and successfully complete the
integration and test phase. In addition, the program must effectively manage activities between
flight and ground projects in a compressed development schedule and constrained budget
environment.

In our 2013 GOES-R audit report,19 we found that schedule slips and a potential reduction in
testing activities have raised concerns about the satellite’s readiness to launch. Funding stability
is the program’s top risk; an appropriation amount below the FY 2014 requested level may
delay launch. Scope reductions are diminishing the satellite’s operational capabilities. For these
reasons, NOAA needs to implement a comprehensive plan to mitigate the risk of potential
launch delays and communicate to users (e.g., in the National Weather Service and Department
of Defense) and other stakeholders (e.g., the Administration, Congress) the changes that may
be necessary to maintain GOES-R’s launch readiness date.


                                                            
19
  U.S. Department of Commerce Office of Inspector General, April 25, 2013. Audit of Geostationary Operational
Environmental Satellite-R Series: Comprehensive Mitigation Approaches, Strong Systems Engineering, and Cost Controls Are
Needed to Reduce Risks of Coverage Gaps, OIG-13-024-A. Washington, DC: Department of Commerce OIG.


FINAL REPORT NO. OIG-14-002                                                                                            10
  U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

NOAA’s policy for its geostationary satellites is to have three satellites in orbit—two
operational satellites with overlapping coverage and one spare for backup. Currently, GOES-13,
GOES-14, and GOES-15 are in orbit (see figure 4). However, GOES-13 is due to be retired in
FY 2015, at which time GOES-14 is projected to become operational. GOES-15 is due to be
retired in FY 2017. GOES-R is scheduled to be launched in October 2015, but there is a risk of
launch delay. NOAA may not be able to meet its policy of having an on-orbit spare, even
without a GOES-R launch delay, based on current GOES satellites’ projected retirement dates.
Furthermore, a launch delay for GOES-R beyond October 2015 increases the risk that only one
geostationary imager will be in orbit—which would severely limit NOAA’s capability to visualize
and track severe weather events.

        Figure 4. Potential Policy Gaps for Geostationary Operational Satellites




   Source: OIG analysis of NOAA data

Addressing Material Weakness over Satellite Accounting

During FY 2012, the accounting firm KPMG noted several material control weaknesses at
NOAA related to accounting for satellites. NOAA has a large investment in satellites and, as of
the end of FY 2012, satellite construction work-in-progress amounted to $6.1 billion, with
completed satellites and ground systems costing another $0.6 billion, totaling approximately
more than one-fifth of the Department’s assets. In addition, NOAA’s accounting for satellites is
highly complex. Such transactions originate in a NOAA line office where personnel do not have
sufficient financial accounting experience and training, and NOAA’s Finance Office does not


FINAL REPORT NO. OIG-14-002                                                                   11
  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

have sufficient oversight of the accounting for satellites. Further, satellite accounting involves
significant contracts and arrangements with contractors and other government agencies.

These challenges have resulted in material deficiencies in NOAA’s satellite accounting during FY
2012. Specifically, KPMG identified the incorrect classification of a satellite ground system,
unrecorded transfer of a satellite from another federal agency, and corrections to the satellite
impairment amount. These errors resulted in approximately $900 million in adjustments to
correct the amount of satellites included in NOAA’s accounting records. In addition, KPMG
identified uncapitalizable costs included in construction work-in-progress, as well as a lack of
documentation evidencing review and approval of intragovernmental payments related to
satellites. Although NOAA has developed a corrective action plan to address these conditions
during FY 2013, we believe that these deficiencies highlight more than accounting challenges.
The operation and management of NOAA’s satellite program needs strengthening to ensure
integrity, accountability, and transparency. Public and Congressional confidence in the
Department depends on these basic principles of stewardship. Therefore, program and finance
officials must work together to ensure that satellite investments are accurately identified,
recorded, and reported—a basic principle of asset management. We also identified additional
challenges related to NOAA’s accounting and budgetary controls of funds in challenge 5 (see
Continue to Foster a Culture of Management Accountability to Ensure Responsible Spending).

Enhancing Fisheries Management

In 2011, there were 51 million jobs in U.S. coastal shoreline counties. Of those, the commercial
fishing industry accounted for approximately 1 million jobs and the recreational fishing industry
accounted for 327,000 jobs. U.S. fishermen at ports in the 50 states brought in 9.9 billion
pounds of fish valued at $5.3 billion in 2011—an increase of 1.63 billion pounds (up 19.7
percent) and $769 million (up 17 percent) compared to 2010. Fishing is an important industry
in our nation’s economy as a whole and in the many coastal communities and port towns, as
shown in figure 5.




FINAL REPORT NO. OIG-14-002                                                                          12
  U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

                     Figure 5. Dollar Value of Fish Landings at U.S. Ports




                                                            Less than $10 million 

                                                            $10–50 million 

                                                            $50–100 million 

                                                            More than $100 million 

     Source: NOAA Office of Science and Technology, National Marine Fisheries Service

However, NOAA must also consider the health of our oceans and coastal ecosystems, which
are impacted by coastal development, pollution, overfishing, and the destructive impact of
invasive species. In U.S. waters, there are 74 listed endangered species and 62 marine mammals
under the Marine Mammal Protection Act. There are 219 species under review or of concern
to the National Marine Fisheries Service’s (NMFS’s) Office of Protected Resources.

For several years, we have reported on NOAA’s challenges in balancing two competing
interests: promoting commercial and recreational fishing as vital elements of our national
economy and preserving populations of fish and other marine life. In recent years, members of
the fishing industry and elected officials from the New England region have repeatedly
questioned certain fishery regulations and whether NOAA has abandoned a core mission to
develop the commercial fishing industry and increase industry participation.

In January 2013, we reported on NOAA’s controls and processes surrounding fisheries
rulemaking as the first phase of our assessment of transparency and the role of fishery




FINAL REPORT NO. OIG-14-002                                                                           13
  U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

management councils (FMCs20) in rulemaking. An effective regulatory environment requires a
fair and transparent rulemaking process. We learned that FMC members’ financial disclosures
do little to increase transparency of the process—and NOAA performs minimal reviews of the
information on the financial disclosure forms. NMFS has not implemented many of the
regulatory changes designed to streamline its rulemaking, and rules packages and administrative
records are inconsistently maintained among its regional offices. In response to last year’s
challenge pertaining to fisheries management, NOAA reported that it continues to make
progress in streamlining the rulemaking process and improving the transparency and
consistency of fisheries management by addressing the relevant OIG recommendations.

We also issued the results of our survey of fishery management council members and staff—
who, in general, supplied positive responses to the survey. Most survey participants were
satisfied with their interactions with NMFS, as well as with the fishing industry and
nongovernment organizations. Suggestions to improve collaboration between NMFS and FMCs
mainly involved occurrence and methods of communication, participation from NOAA's Office
of the General Counsel, and outreach and transparency to stakeholders.

We are currently reviewing several of NOAA’s catch share programs to determine whether
there are (1) adequate controls in place to prevent excessive ownership of limited shares and
(2) adequate tools and processes in place to collect information needed to make decisions and
to ensure adequate competition.

Considering the importance of fisheries to the U.S. economy, it is critical that NOAA and the
FMCs balance the interests of the fishing community with conservation concerns. Regardless of
long-term sustainability and conservation concerns, many stakeholders claim that measures
such as limiting catch in fisheries and enforcing limited access privilege programs have had a
negative impact on some local fishing communities. NOAA’s challenge is to effectively balance
those interests—and effectively communicate to stakeholders how the agency’s efforts serve
the long-term economic interests of the fishing industry.




                                                            
20
  FMCs allow for regional, participatory governance by knowledgeable stakeholders. NMFS partners with FMCs—
along with state agencies and other federal bureaus—to develop fishery management strategies and rules for the
commercial and recreational fishing industries. There are currently 46 fishery management plans, developed by the
eight regional FMCs or the Office of the Secretary under certain circumstances, to manage fishery resources.


FINAL REPORT NO. OIG-14-002                                                                                    14
  U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL


Challenge 3: 

Continue Enhancing Cybersecurity and Management of Information Technology
Investments

Pervasive and sustained cyber attacks against the United States could have a devastating effect
on federal and nonfederal systems, disrupt the operations of governments and businesses, and
impact the lives of the American people. The President’s FY 2014 budget requires that agencies
eliminate duplicative or low-value IT investments while expanding efforts to counter current
and evolving cyber threats. The administration has identified cybersecurity as among the most
serious economic and national security challenges we face. To bolster the national
cybersecurity program, federal agencies have been asked to implement cross-agency
cybersecurity priorities—including strong authentication, Trusted Internet Connections (TIC),
and continuous monitoring. In addition, the President has directed the National Institute of
Standards and Technology (NIST) to develop a voluntary framework for reducing cyber risks to
our nation’s critical infrastructure.

We reported our concerns about the Department’s fragmented IT governance in previous
years. In response to OMB direction, the Acting Secretary issued a June 2012 memorandum
that described a strategy to strengthen the Department’s Chief Information Officer’s (CIO’s)
ability to oversee the bureaus’ annual $2.5 billion IT investments.21 The CIO has leveraged this
increased authority to lead the effort to consolidate commodity IT Department-wide—and
continues to strengthen IT oversight through the Commerce IT Review Board. However, the
CIO’s responsibility to oversee satellite IT investments has been diminished, and IT investments
still need to close the gap between planned and actual schedule and cost performance.

To help the Department counter current and evolving cybersecurity threats, as well as
maximize the consolidation and oversight of its IT investments, we have identified five areas for
management attention:
•      Establishing a robust capability to respond to cyber incidents
•      Continuing sustainable implementation of enterprise cybersecurity initiatives
•      Preserving the CIO’s oversight responsibility of satellite-related IT investments
•      Continuing vigilant oversight of IT investments
•      Maintaining momentum in consolidating commodity IT22 to cut costs


                                                            
21
   U.S. Department of Commerce, Office of Secretary, June 21, 2012. Department IT Portfolio Management Strategy.
Washington, DC: DOC OS.

22
   According to OMB, commodity IT includes “IT infrastructure (data centers, networks, desktop computers and 

mobile devices); enterprise IT systems (e-mail, collaboration tools, identity and access management, security, and 

web infrastructure); and business systems (finance, human resources, and other administrative functions).” See 

Office of Management and Budget, August 8, 2011. Chief Information Officer Authorities, Memorandum M-11-29. 

Washington, DC: OMB, 2.



FINAL REPORT NO. OIG-14-002                                                                                        15
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

Establishing a Robust Capability to Respond to Cyber Incidents

In our FY 2013 Top Management Challenges report,23 we noted that, in January 2012, as a result
of a perceived massive malware infection, the Economic Development Administration (EDA)
disconnected its systems from the Internet, significantly affecting its ability to maintain normal
business operations. Since issuing that report, we completed our review24 of the events
surrounding EDA’s cyber incident and found that critical incident response decisions were
based on inaccurate information—and that deficiencies in the Department's incident response
program impeded EDA's incident response. Because of a series of missteps in responding to this
incident, a common malware infection originally found on two EDA computers was portrayed
as a widespread cyber attack on EDA’s IT infrastructure. This resulted in a prolonged disruption
of normal business operations and the unnecessary expense of more than $2.7 million for
recovery activities.

Our review also highlighted challenges for the Department when responding to a cyber
incident. We made recommendations to improve the Department’s Computer Incident
Response Team (DOC CIRT), which provides response services to the seven bureaus located
in the Department’s headquarters at the Herbert C. Hoover Building (HCHB). To begin
addressing deficiencies in DOC CIRT incident response capabilities, the Department’s CIO
conducted an internal review of DOC CIRT’s practices and processes. The review identified
areas for improvement and focused on strengthening DOC CIRT’s organizational structure; its
roles and responsibilities; and operating unit procedures for incident identification, analysis,
response, and reporting. The Department’s CIO has also taken steps to ensure that DOC CIRT
staff members receive appropriate training, update DOC CIRT’s incident response procedures,
develop agreements with external agencies to gain incident response expertise, and hire
experienced incident response staff.

The President has identified the cybersecurity threat as one of the most serious national
security, public safety, and economic challenges we face. To deal successfully with the cyber
threat, the Department needs to establish a robust incident response capability at DOC
CIRT. Furthermore—because DOC CIRT primarily provides incident response services to
bureaus located at HCHB—ensuring productive collaboration among all bureaus is critical
for the Department to effectively respond to a cyber event. This includes bureaus that have
their own CIRT capabilities, such as the Census Bureau, the International Trade
Administration (ITA), NIST, the National Oceanic and Atmospheric Administration
(NOAA), and the U.S. Patent and Trademark Office (USPTO). OIG is currently conducting
an audit of the incident detection and response capabilities of several bureaus within the
Department. Our audit should complement work already done by the Department and help
to further improve its incident response program.



                                                            
23
   DOC Office of Inspector General, November 9, 2012. Top Management Challenges Facing the Department of
Commerce, OIG-13-003. Washington, DC: OIG, 15.

24
   DOC OIG, June 26, 2013. Malware Infections on EDA's Systems Were Overstated and the Disruption of IT Operations 

Was Unwarranted, OIG-13-027-A. Washington, DC: DOC OIG.



FINAL REPORT NO. OIG-14-002                                                                                      16
  U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

Continuing Sustainable Implementation of Enterprise Cybersecurity Initiatives

The Department has three enterprise cybersecurity initiatives underway to address mandates
from the Office of Management and Budget (OMB). The Enterprise Cybersecurity Monitoring
and Operations (ECMO) and Enterprise Security Oversight Center (ESOC) initiatives support
OMB’s mandate25 to continuously monitor security-related information from across the
enterprise. The TIC initiative supports the mandate26 that federal agencies optimize and
standardize their individual external network connections, including connections to the
Internet. Collectively, these undertakings should significantly improve the Department’s
cybersecurity posture. Table 1, below, provides the goal, implementation status, and issues for
each:

 




                                                            
25
   Executive Office of the President Office of Management and Budget, April 21, 2010. FY 2010 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy Management, Memorandum M-10-15.
Washington, DC: OMB, 1.
26
   OMB, November 20, 2007. Implementation of Trusted Internet Connections (TIC), Memorandum M-08-05.
Washington, DC: OMB, page 1. Also, see OMB, September 17, 2009. Update on the Trusted Internet Connections
Initiative, Memorandum M-09-32. Washington, DC: OMB, 1.


FINAL REPORT NO. OIG-14-002                                                                                       17
  U.S. DEPARTMENT OF COMMERCE                                                                     OFFICE OF INSPECTOR GENERAL

                                   Table 1. Department’s Enterprise Cybersecurity Initiatives
Enterprise
                                     Initiative Goal               Implementation Status                        Issues
Initiatives
                                                                  Initial capability has been
                         Provide nearly real-time                  implemented on more than            Delays in obtaining
                         security status, support for              8,500 system components             funding and participation
                         patch management, and                     across HCHB operating units.        commitments from
ECMO                     remediation of software                  Upon full deployment in             USPTO and the Census
                         configuration issues for                  September 2014, ECMO will           Bureau in FY 2013 may
                         Department-wide system                    support more than 100,000           result in missing the
                         components                                system components                   September 2014 deadline.
                                                                   throughout the Department.
                                                               Currently in the planning stage, the
                                                               Department is:
                         Provide Department-wide                  Doing a detailed assessment of
                         security situational                      incident handling capabilities in   The initiative faces
ESOC                     awareness to senior                       HCHB and NOAA, and a high-          challenges acquiring
                         Departmental and operating                level assessment across the         project resources.
                         unit managers                             Department.  
                                                                  Conducting a technical
                                                                   capabilities study. 
                                                                  All bureaus—except the
                                                                   Bureau of Industry and Security
                                                                   (BIS), the Census Bureau, and    BIS is working with its
                                                                   NOAA—have acquired a TIC         selected service provider
                                                                   service.                         to resolve technical
                                                                  BIS will acquire TIC services by issues.
                         Consolidate Department                    March 2014.
                         external network                                                           Census is working with
TIC                      connections and provide                  The Census Bureau has not        the Department of
                         better monitoring of cyber                implemented TIC because of       Homeland Security to
                         threats from the Internet                 concerns about third-party       develop a memorandum
                                                                   access to sensitive Title 1327   of understanding that
                                                                   data.                            would ensure that the
                                                                  NOAA has made progress           confidentiality of Title 13
                                                                   becoming its own TIC access      data is protected.
                                                                   provider and will do so by
                                                                   March 2015.

Source: Department of Commerce

Timely implementation of these initiatives is crucial to the Department’s cybersecurity program,
particularly in light of the ever-increasing cyber threats facing government systems. The ECMO
and ESOC initiatives are critical to maintaining cybersecurity best practices to protect network
components, implementing continuous monitoring, and providing timely cyber situational
awareness across the Department. Thus, the Department needs to ensure that current efforts
                                                            
27
  Title 13 guarantees the confidentiality of information obtained by the Census Bureau and establishes penalties for
disclosing this information.


FINAL REPORT NO. OIG-14-002                                                                                                   18
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

for these initiatives move forward as planned and that operating units cooperate and participate
to the fullest extent.

Since last year, NOAA has made progress toward becoming its own TIC provider by
implementing about 72 percent of the required TIC capabilities. However, the Census Bureau
and BIS have yet to acquire TIC services. The TIC initiative should significantly reduce the risks
associated with external network and Internet connections. Accordingly, the Department needs
to encourage NOAA to complete its TIC implementation quickly and should make every effort
to enable the Census Bureau and BIS to expeditiously resolve their TIC issues.

Preserving the CIO’s Oversight Responsibility of Satellite-Related IT Investments

Under the OMB IT reform plan28 and subsequent OMB guidance,29 agencies have been directed
to expand federal CIO responsibility from a traditional role of policymaking and infrastructure
maintenance to managing the agency’s entire major IT investment portfolio. The Department of
Commerce CIO oversees major IT investment in three ways: (1) reviewing the capital asset
plan (Exhibit 300) for the initiation or re-planning of each investment; (2) comparing the
investment’s status against the asset plan monthly and submitting the assessment to the OMB IT
Dashboard for public exposure; and (3) holding Commerce IT Review Board sessions
periodically for an in-depth look at the investment and gauging when an investment is in trouble
because it has significantly deviated from its plan.

However, the CIO oversaw about a quarter fewer IT investments in FY 2013 than in FY 2012.
In particular, in an effort to streamline oversight, the Department has waived the requirement
to follow CIO oversight practices for six satellite-related investments totaling $642 million in FY
2013 spending.30 Two of these investments, the development of the Geostationary Operational
Environmental Satellite–R Series and Joint Polar Satellite System ground systems, are part of the
acquisition of two new satellite series that undergo substantial oversight as part of the satellite
acquisition process, including comprehensive milestone reviews by independent satellite
experts. The other four satellite-related investments— the maintenance and enhancement of
two satellite ground systems and two satellite data processing and distribution systems—do not
receive such extensive oversight. Although the Department has established quarterly reviews
for executives to discuss high-level investment issues, the reviews do not replace the CIO’s in-
depth tracking and evaluation of these satellite investments.31 The four satellite-related
maintenance and enhancement investments are similar to other major IT investments overseen

                                                            
28
   OMB, December 9, 2010. 25 Point Implementation Plan to Reform Federal Information Technology Management.
Washington, DC: OMB, 28.
29
   OMB, August 8, 2011. Chief Information Officer Authorities, M-11-29. Washington, DC: OMB.
30
   The satellite-related IT investments include (1) two satellite ground system development projects (Geostationary
Operational Environmental Satellite–R series and Joint Polar Satellite System), (2) two ground system maintenance
projects (Geostationary Operational Environmental Satellite and Polar Operational Environmental Satellite), and
(3) maintenance of two systems that process and distribute satellite data products (NPOESS Data Exploitation
Ground System and Environmental Satellite processing center).

31
   The Department has also established a Milestone Review Board for high-profile programs; however, it will only 

review the two new satellite series acquisitions, not the four satellite-related maintenance and enhancement

investments.



FINAL REPORT NO. OIG-14-002                                                                                      19
  U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL

by the CIO. The Department should reinstate the CIO oversight process for these four
investments.

Continuing Vigilant Oversight of IT Investments

We reported in our FY 2013 Top Management Challenges that the IT Review Board has
improved its reviews of IT investments, leading to a greater likelihood that investments will
progress more satisfactorily.32 The number of IT investments assessed as high-risk has
substantially decreased, falling from six last year to only one investment this year: the National
Weather Service (NWS) Telecommunication Gateway. Table 2 presents the current risk
evaluation of investments that were at high risk in FY 2012:

            Table 2: Disposition of the Department’s FY 2012 High-Risk Investments

                   Investment                                         Current Risk Disposition

                   Census Bureau American Community
                                                                 Medium risk
                   Survey
                   Census Bureau 2010 Decennial system
                                                                 Completed
                   design, integration, and evaluation
                   Census Bureau IT infrastructure               Low risk
                   NOAA National Weather Service
                                                                 High risk
                   Telecommunication Gateway
                   NOAA Joint Polar Satellite System             Risk not evaluated by CIO due to
                   Ground System                                 oversight streamlining
                                                                 Risk not evaluated by CIO due to
                   NOAA Weather Radio Improvement
                                                                 restructuring and the merging of this
                   Project
                                                                 project with other investments
                Source: OIG, Top Management Challenges Facing the Department of Commerce, October 24, 2011,
                and OMB IT Dashboard, August 2013

We remain concerned, as we reported last year, about IT investments with a history of being
high-risk. For example, in December 2010, the Department’s CIO assessed the NWS
Telecommunication Gateway and designated it a high-risk project. In that same year, OMB
designated the Bureau of Industry and Security’s Commerce USXPORTS Exporter Support
System as a high-risk Departmental project. Although both investments have made some
progress since 2010, the Telecommunication Gateway is still assessed as a high-risk investment
and USXPORTS recently ran into significant development roadblocks and was again evaluated
high-risk for a short period in FY 2013 (see table 3). Both investments now require re-planning
to move forward.




                                                            
32
 DOC OIG, November 9, 2012. Top Management Challenges Facing the Department of Commerce, OIG-13-003.
Washington, DC: OIG, 18.


FINAL REPORT NO. OIG-14-002                                                                                   20
  U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

                  Table 3: Department FY 2013 Investments with a High-Risk History
                                                                 FY 2013       FY 2014 to     Total Life-
        Investments                                            Spend Plan      Completion     Cycle Costs
                                                               ($ Millions)    ($ Millions)   ($ Millions)

        NOAA NWS Telecommunication Gateway                          21             165             403

        BIS Commerce USXPORTS Exporter
                                                                     6               5              17
        Support System
      Source: Exhibit 300s for FY 2013

The number of investment work activities that are behind schedule is somewhat reduced but
more than one-fifth of them are still 30 percent or more behind schedule (see table 4). Overall,
cost growth and schedule delays of the Department’s investment activities exceed the federal
government average.

                              Table 4: Investment Activity Cost and Schedule Variance
                                                               Department of               Federal
                                                                Commerce                 Government
           Percentage of activities with cost
                                                                     19                       12
           growth greater than 30 percent
           Percentage of activities with schedule
                                                                     22                       15
           delays greater than 30 percent
         Source: OMB IT Dashboard (August 2013)

The challenge for Departmental IT investment oversight (CIO, IT Review board, and Milestone
Review board) is to identify the fundamental reasons that high-risk projects continue not to
make adequate progress; implement necessary changes to their acquisition approach,
management structure, and development plans; and, if necessary, bring in outside expertise to
identify weaknesses and recommend mitigation actions.

Maintaining Momentum in Consolidating Commodity IT to Cut Costs

The Department CIO is leading the effort to reduce commodity IT costs per full-time
equivalent by about 25 percent annually33 to be more in line with costs at comparable agencies.
Departmental and bureau CIOs are employing three basic approaches to break down costly
and inefficient IT:

       1. Consolidating infrastructure, including data centers and services (e.g., the Census Bureau is
          operating centralized Bureau-wide collaboration and content management services)

       2. Sharing procurement vehicles to leverage economies of scale (e.g., the use of Department-
          wide Microsoft Office and McAfee SafeBoot contracts)
                                                            
33
     In FY 2011, the Department spent $8,884 per full-time equivalent, about $2,300 more than comparable agencies.


FINAL REPORT NO. OIG-14-002                                                                                     21
  U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

    3.	 Hosting services for other Department bureaus (e.g., the Office of Secretary and NOAA
        are hosting all IT services for the Economic Development Administration)

Department and bureau heads must ensure that their respective CIOs continue to have full
cooperation in overcoming bureaucratic impediments to consolidating and sharing IT
commodity resources.




FINAL REPORT NO. OIG-14-002                                                                     22
  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Challenge 4: 

Exercise Strong Project Management Controls over 2020 Census Planning to
Contain Costs

The decennial census is a highly visible, decade-long program that requires extensive planning
and testing. The 2020 Census process has already started building on 2010 Census lessons
learned about late-stage design changes and higher-than-expected contractor expenses. Both
contributed to pushing the final cost of the 2010 Census to more than $12 billion—nearly
twice that of the 2000 Census (in nominal dollars). The Census Bureau has promised bold
design changes for the 2020 Census, seeking to reduce per household costs (on an inflation-
adjusted basis) to an amount lower than the 2010 Census. To reach this goal, the Bureau must
complete research and testing early enough in the decade to plan and build the necessary
infrastructure for the projected workload and workforce. The Bureau will be making key 2020
Census design decisions during FYs 2015–16 that drive the program’s methodology, quality, and
cost for producing congressional apportionment data by December 31, 2020, and redistricting
data by March 31, 2021.34

As a result of our 2010 Census oversight, we noted challenges the Census Bureau faces to
innovate its 2020 Census design.35 Overcoming these challenges calls for fundamental
improvements in decennial planning, management, testing, and transparency to help ensure that
the missed opportunities of previous decades are not repeated in 2020. We identified 19
recommendations categorized into 7 areas of improvement:
1. Revamp cost estimation and budget processes to increase accuracy, flexibility, and
   transparency.
2. Use the Internet and administrative records to contain costs and improve accuracy.
3. Implement a more effective decennial test program using the American Community Survey
   as a test environment.
4. Effectively automate field data collection.
5. Avoid a massive end-of-decade field operation through continuous updating of address lists
   and maps.
6. Implement improved project planning and management techniques early in the decade.
7. Establish a Census Bureau director position that spans presidential administrations.

The Census Bureau has made improvements since its 2010 decennial operation, including early
monitoring of 2020 decennial risks, more open communication about progress and problems
with stakeholders, and efforts to implement an Internet response option to its American
Community Survey (ACS) that can serve as a model for 2020 decennial responses. In addition,

                                                            
34
 These delivery dates are mandated by law; see 13 U.S.C. § 141.

35
 U.S. Department of Commerce Office of Inspector General, June 27, 2011. Census 2010: Final Report to Congress, 

OIG-11-030-I. Washington, DC: DOC OIG.



FINAL REPORT NO. OIG-14-002                                                                                   23
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

Congress authorized a term-appointed Census Bureau director to oversee timely, critical
decennial design decisions. A new director was appointed to this term position in July 2013.
The Bureau has partially addressed some of our recommendations; however, more work
remains. As the Bureau innovates a 2020 decennial design, we have identified two areas for
management attention:
•  Ensuring timely design decision making
•  Focusing on human capital management, timely research, and testing implementation

Ensuring Timely Design Decision Making

The Census Bureau is approaching critical 2020 Census design decision points that require
planning and developing a decennial census in a significantly more constrained budget
environment than experienced during the 2010 Census. Soon, the Bureau must rapidly analyze
2020 decennial design alternatives and make key design decisions based on the results of its
research and testing phase. Components of this more than $1 billion effort (see figure 6)
include:

    	 2010 Census evaluations, referred to as the Census Program Evaluation and Experiments
       (CPEX)
    	 The Geographic Support System (GSS), which provides the maps, address lists, geographic
       reference files, and associated processing systems to meet the geographic requirements
       of all Census Bureau programs. GSS priorities related to the decennial census include
       maintaining and updating the integrated database that contains the Master Address File
       (MAF)—an inventory of the nation’s addresses—as well as the Topologically Integrated
       Geographic Encoding and Referencing (TIGER), a national inventory of streets and map
       features. The GSS also includes an initiative intended to inform the Bureau on the
       viability of conducting a targeted rather than a full address canvassing operation in 2019
       in support of the 2020 Census.
    	 2020 Census research and testing (R&T) projects that test new enumeration methods, new
       processes to support field operations, more cost-effective IT systems, and address and
       map improvements needed for the 2020 Census to supplement GSS efforts
    	 Other Census Bureau-wide efforts, including development and processing infrastructure
       that supports Bureau surveys and leveraging work conducted on the ACS (e.g., adapting
       an online response option)




FINAL REPORT NO. OIG-14-002                                                                     24
  U.S. DEPARTMENT OF COMMERCE                                                                         OFFICE OF INSPECTOR GENERAL

                                          Figure 6. 2020 Census Design Decision Process

                                                               2010 Census Evaluations (CPEX)
                                                                  Life cycle cost: $86 million



                                                                                              Geographic
                                           2020 Census
                                                                                            Support System
                                           R&T projects                2020 Census
                                                                                                 (GSS)
                                          Life cycle cost:            Design Decision
                                                                                            Life cycle cost:
                                           $405 million
                                                                                             $674 million



                                                                            Other
                                                                      (e.g., Center for
                                                                      Adaptive Design,
                                                                             ACS)


                                    Source: OIG analysis of Census Bureau documents available May 2013

Our office has conducted several reviews of the Census Bureau’s approach and progress
toward the planning and development of a new cost-effective 2020 decennial design (e.g, the
CPEX,36 GSS,37 and R&T38 programs). We found that, as research and testing continues, the
Bureau must contend with and plan for several challenges that could adversely impact the next
decennial census. Like the rest of the federal government, the Bureau is operating in a
constrained budget environment. It must therefore be strategic in how it spends available
funding and provide the Secretary and Congress reliable and transparent budget requests. The
Bureau must devote careful attention to its FYs 2015 and 2016 budget submissions, which will
fund testing of new decennial design options that ultimately drive the cost trajectory for the
2020 Census.

Focusing on Human Capital Management, Timely Research, and Testing
Implementation

During our current 2020 Census redesign evaluation, we noted significant schedule slippage in
the Census Bureau’s key research and testing programs. If continued, missed deadlines will
translate into an untenable continuation of an already expensive design. The cost (in constant
dollars) of counting each housing unit could reach $151, compared with $97 for 2010. Through

                                                            
36
   DOC OIG, April 5, 2012. 2020 Census Planning: Delays with 2010 Census Research Studies May Adversely Impact the
2020 Decennial Census, OIG-12-023-1. Washington, DC: OIG.

37
   DOC OIG, May 10, 2012. High-Quality Maps and Accurate Addresses Are Needed to Achieve Census 2020 Cost-Saving 

Goals, OIG-12-024-I. Washington, DC: OIG.

38
   DOC OIG, September 17, 2013. 2020 Census Planning: Research Delays and Program Management Challenges 

Threaten Design Innovation (draft report). Washington, DC: OIG. 



FINAL REPORT NO. OIG-14-002                                                                                                 25
  U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

our ongoing work on the Bureau’s approach to and progress on planning for 2020 decennial
census we have identified three time-sensitive Bureau management priorities:

             Managing human capital to align with the Bureau’s mission and programmatic goals

             Completing timely research for making evidence-based design decisions

             Implementing a stable, agile field-testing strategy

Managing Human Capital to Align with Bureau Mission and Programmatic Goals

As part of the decennial census planning effort, the Census Bureau is striving to improve the
management and culture of the decennial directorate. The Bureau’s two-pronged effort entails
collaboration between its 2020 Census directorate and Human Resources division to (1) review
required skills and competencies and (2) conduct a formal analysis to compare those requisite
skills to the skills and capabilities of their current workforce.

An objective and informative assessment of the Census Bureau’s current workforce is critical
to containing 2020 Census costs. Like many federal agencies facing mandatory budget
reductions, the Bureau must balance meeting critical mission requirements against ensuring the
maintenance of its existing human capital. To implement the FY 2013 budget reductions, the
Bureau (1) sought to “minimize the impact on our employees, seeking to avoid furloughs, while
sustaining our core mission and preserving our most important programs within the limited
flexibility provided,”39 (2) canceled or reduced the scope of, or decided not to award, more
than $30 million in contracts for the second half of FY 2013, (3) froze hiring on all but the most
mission-critical positions, and (4) did not fill more than 100 “critical vacancies.” With more
budget reductions projected, the Bureau’s workforce assessment should help inform its long-
term strategy to implement a decennial census that costs less than the 2010 Census.

Completing Timely Research for Making Evidence-Based Design Decisions

The Bureau’s research agenda includes capturing lessons learned from the last decennial census
and conducting research and testing projects that emphasize containing costs without
diminishing information quality (see table 5.)




                                                            
39
  Census Director’s blog on June 19, 2013; available at: http://directorsblog.blogs.census.gov/2013/06/19/census-
bureau-budget-update-2/.


FINAL REPORT NO. OIG-14-002                                                                                         26
  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

                          Table 5. Costly 2010 Census Operations and
                            2020 Research Efforts to Address Them

   2010 Census Cost and Operation                    2020 Research Aimed to Reduce Costs
                                                     Can the number of household visits be reduced by finding
                 Enumerating nonresponding           an alternative, less costly response option?
   $2 billion
                 households                          Can existing government records fill in missing
                                                     information?

   $790          Building a one-time-use field
                                                     Can reusable enterprise-wide solutions be built and
                 data collection automation
   million                                           expanded to meet decennial needs?
                 system

                 Ensuring that labor, systems, and   Can the number of paper questionnaires be reduced
                 development are in place to         through an Internet response option?
   $473          process and capture the data for    Can an automated field data collection reduce the paper
   million       more than 164 million paper         workload?
                 questionnaires at three data        Can the reduced paper workload result in fewer data
                 centers                             capture centers?
                                                     Can Census maps and addresses be efficiently updated
   $444          Having an end-of-decade
                                                     throughout the decade, with areas experiencing change
                 address and geography updating
   million                                           accurately targeted to reduce the amount of end-of-
                 operation
                                                     decade canvassing?

   $330                                              Can distance management, training, and automated
                 Leasing 494 local and 12 regional
                                                     processes allow the Census Bureau to reduce the number
   million       Census offices
                                                     of temporary Census offices?

  Source: OIG analysis of Census Bureau documents

In addition to the cancellation of 20 of the original 109 studies aimed to measure the Bureau’s
performance in the 2010 decennial, we found that the CPEX program results were often not
implemented as designed to inform the 2020 R&T program. We also found the Census Bureau
is experiencing schedule slippage and project delays in its R&T program that affect subsequent
research phases and design decision points (see figure 7). The multifaceted and interrelated
nature of the research program underscores the necessity of adhering to a schedule to make
timely, evidence-based design decisions.




FINAL REPORT NO. OIG-14-002                                                                                     27
  U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

                         Figure 7. Research and Testing Activity Delays




                                       Source: OIG from Census Bureau data

Another challenge identified in our recent report is to develop a schedule that provides
managers and oversight stakeholders with valid, timely, accurate, and auditable performance
information on which to base critical decisions. The Census Bureau alters baselines (i.e., re-
baselines), which can conceal delays and give the appearance that schedules are met. For
example, major decision points for the 2020 Census have been re-baselined three times, with
original deadlines pushed back from September 2014 to September 2015 (see figure 8).

              Figure 8. Shifting Deadlines: The 2020 Census Design Decision

                         Original 

                         Deadline: 

                         September                          Current Deadline:
                         2014                                September 2015




                                             Delayed:
                                             May 2015



                     Source: OIG analysis of Census Bureau documents




FINAL REPORT NO. OIG-14-002                                                                           28
  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

Implementing a Stable, Agile Field-Testing Strategy

Testing operations in real-life situations is critical to ensuring that research results yield
improvements in the decennial census. However, field test plans are in flux: their schedule has
been pushed back three times, with an FY 2016 completion date reflecting a year-and-a-half
delay. Further, the Census Bureau canceled 13 of 25 scheduled field tests. Frequent schedule
changes, testing delays, and cancellations threaten the Bureau’s ability to incorporate test
results into subsequent research and design decisions. The Bureau cites the major impacts of
the Congressional budget cut and sequestration as a cause for the changes in content and
timing of its research and testing efforts. Nevertheless, budget reductions, continuing
resolutions, and the sequestration (signed into law in August 2011) should have been planned
for.

To increase opportunities for testing, both the National Academy of Sciences and OIG have
recommended using the ACS as a test environment for smaller trials of new processes,
procedures, and systems for the decennial. The Census Bureau recently developed a small test
that uses a modified ACS infrastructure—including ACS’s systems, questionnaire, and training
materials. Previously, using the ACS as a test environment had been delayed to January 2015. In
addition, several legislative proposals to eliminate or alter the quality of the data collected by
the ACS threaten its use for decennial testing. The Bureau faces the challenge of implementing
the ACS while conducting cost-effective, small-scale tests—or implementing separate large-
scale, more costly 2020 Census field tests—to evaluate new design features. With the 2020
Census design still under development, it is unknown how legislatively-mandated changes to the
ACS will impact the Bureau’s goal of containing the cost of the decennial census while
preserving data quality.




FINAL REPORT NO. OIG-14-002                                                                       29
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


Challenge 5: 

Continue to Foster a Culture of Management Accountability to Ensure
Responsible Spending

As the government experiences an extended period of tightened budgets, it is imperative to
foster a culture of management accountability. OIG operates a complaint hotline for employees
and the public to submit information about alleged wrongdoing, misconduct, or
mismanagement. OIG’s determination to audit, investigate, or provide the complaint
information to Departmental or bureau management for appropriate action helps to instill a
culture of ethical conduct and ensure that spending is appropriate, complies with laws and
regulations, and promotes investments with long-term benefits.

While the Department has improved its ability to deal with hotline complaints, there has been
an increasing number of complaints to OIG. In FY 2013, NOAA-related complaints represented
the largest increase; those complaints comprise almost 40 percent of total complaints. OIG’s
hotline also receives complaints related to the use of appropriated funds by other bureaus.
These issues highlight the Department’s need to implement stricter control over funds
Department-wide. The Department and most of its bureaus use outdated financial management
systems. Limited system functionality and high support costs impede the Department’s ability to
oversee and manage Department-wide financial activities. Plans to replace the legacy systems by
FY 2018 face significant challenges.

The Department’s annual acquisitions total approximately $2.4 billion and range from satellites,
public safety networks and broadband technology opportunities to the construction of facilities.
Last year the Department reported it exceeded its goals in reducing the dollar amount of high-
risk contracts, per 2009 Office of Management and Budget guidance. However, our audits
indicate that reducing the use of several types of high risk contracts remains a critical challenge.
Oversight of these goods and services requires a qualified staff of appropriate numbers.
However, budget constraints and uncertainties present significant roadblocks to recruiting
competent staff, retaining mid-level staff, and adjusting to attrition.

Finally, the potential misuse of federal funds by award recipients requires stronger oversight of
Departmental programs that award grants or cooperative agreements. These awards amounted
to $6.5 billion in the 3-year period ending June 30, 2013. In addition, American Recovery and
Reinvestment Act of 2009 (Recovery Act)-funded Broadband Technology Opportunities
Program (BTOP) awards, a $3.8 billion program, require oversight as they are closed out.




FINAL REPORT NO. OIG-14-002                                                                       30
  U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

We have identified five key areas for management attention:
•  Responding to concerns of mismanagement and ethical violations
•  Implementing stricter controls over funds
•  Modernizing the enterprise financial management system to strengthen financial oversight
•  Strengthening controls over high-risk contract actions and developing the acquisition
    workforce
•  Addressing grant management issues

Responding to Concerns of Mismanagement and Ethical Violations

According to the Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, federal departments’ managements are responsible for
establishing, maintaining, implementing, and continuously monitoring and improving internal
control systems. Each year, in the Department’s financial statement audit, the Secretary and
other management officials certify their responsibility for the design and implementation of
programs and controls to prevent, deter, and detect fraud. OIG’s compliance and ethics hotline
has helped the Department make progress toward this responsibility.

Addressing Hotline Complaints

OIG operates a hotline for employees and members of the public to report information about
alleged wrongdoing, misconduct, waste, or mismanagement. Many hotline complaints become
the basis of OIG audits and investigations. Complaints that detail management issues are
provided promptly to Departmental and bureau leadership for inquiry and action. These
referrals provide Departmental leadership with information regarding possible issues with their
programs and operations and an opportunity to confront discrete issues before they develop
into larger problems.

Over the past year, bureaus have worked closely with OIG to look into and resolve many
management issues raised through OIG’s hotline. Timely and thorough action to resolve these
issues helps to create a culture of compliance and accountability in the Department. Examples
of successful efforts to resolve such problems during FY 2013 include:

    	 In March 2013, the National Oceanic and Atmospheric Administration (NOAA)
       confirmed information provided by OIG indicating that a team of university researchers
       had been improperly occupying space in a federal facility, subjecting NOAA to potential
       security and appropriations law issues. NOAA informed OIG that it discovered eight
       university employees improperly occupying space in a research facility since 2009 and,
       because an official agreement could not be reached with the university, the team
       vacated that space.
    	 In November 2012, the Department, working through OIG’s complaint process, looked
       into and confirmed that an employee, using the identity of a former employee, applied
       for and received a Department of Commerce ID badge. The individual, granted access
       to a federal facility under a false identity, proceeded to access the facility using the


FINAL REPORT NO. OIG-14-002                                                                     31
  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

        assumed identity repeatedly after normal business hours. The individual, when
        confronted by Department officials, lied about this activity and later resigned.
        In January 2013, NOAA looked into, and substantiated, an OIG hotline allegation that
        employees in NOAA's Office of Marine and Aviation Operations (OMAO) sold scrap
        metal and expired pharmaceutical drugs and used the money to fund an employee social
        group. In November 2012, OMAO issued new policy and procedures to address the
        issues discovered during this inquiry to prevent future recurrence. NOAA is in the
        process of recovering almost $43,000 for return to the Treasury.

While the Department’s management has increased its capacity and ability to deal with hotline
complaints, employees and members of the public have provided an increasing volume of
complaints to OIG. During FY 2013, OIG received 600 Department-related complaints, a 14
percent increase over the previous year (526 complaints). Figure 9 shows the total volume of
Department-related complaints over FYs 2012–2013; in FY 2013, 39 percent of total
complaints related to NOAA.

                Figure 9. Department-Related Complaints Received by OIG
                    (First Quarter, FY 2012–Fourth Quarter, FY 2013)




Source: OIG (October 2013 data)

In order to continue managing potential issues and resolving problems, Departmental
management must remain vigilant in its efforts to seriously look into and address hotline
complaints.




FINAL REPORT NO. OIG-14-002                                                                     32
  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

Results from OIG Investigations

In addition to awarding funds to contractors and grantees, Departmental management is
responsible for providing oversight and ensuring that these funds are properly spent. The
following examples from OIG investigations underscore the need for stronger controls and
more vigilant oversight to prevent fraud, waste, and abuse within the Department and among
its grant recipients and contractors:
    	 Two former executive directors of the Alaska Eskimo Whaling Commission were
       sentenced to 41 months and 6 months in prison, respectively, for their roles in
       defrauding the commission, a NOAA grantee, by money laundering and embezzlement.
       One of the former executive directors was convicted of misapplying almost $400,000 in
       funds from the Commission.
    	 An engineering consultant on a National Telecommunications and Information
       Administration (NTIA) grant pled guilty to a felony count of theft of grant funds, which
       the consultant used for personal purposes. The consultant—who pled guilty and was
       sentenced to serve almost 4 months in jail—agreed to repay the Department of
       Commerce and the Indian Health Service more than $240,000 in restitution.

    	 Former employees of the Upper Cumberland Development District in Tennessee, an
       Economic Development Administration (EDA) grantee, were indicted and await trial for
       substantial theft of government property, bank fraud, and an unlawful monetary
       transaction, as well as making false statements.

Implementing Stricter Controls over Funds

In response to hotline complaints about mismanagement of appropriated funds within National
Oceanic and Atmospheric Administration’s (NOAA’s) National Weather Service (NWS) in
2010 and 2011, the Department conducted a review that highlighted mismanagement of
budgetary resources throughout NWS, including specific instances where accounting records
were manipulated and the Antideficiency Act (ADA) was violated. The Department’s review,
Internal Inquiry into Alleged Mismanagement of Funds at National Weather Service (May 11, 2012),
found significant management, leadership, budget, and financial control problems at NWS.
Further, the Department’s independent auditor reported a material weakness in internal
controls over financial reporting in FY 2012, in part because NWS circumvented budgetary
controls by inappropriately moving expenses between accounts to prevent budget authority
from being exceeded.

Addressing Issues Related to the Unauthorized Reprogramming of Funds

Following the release of the May 11, 2012 report, then-Deputy Secretary Rebecca Blank and
then-Under Secretary of Commerce for Oceans and Atmosphere Jane Lubchenco issued
separate decision memorandums on May 24, 2012. Their memorandums required a total of 20
specific actions for correcting the conditions that led to the report’s findings, including audits,
organizational reporting adjustments, and budget formulation and execution process changes. In
a recent review of these actions, we found that the Department and NOAA have taken steps
to address the findings identified in the Department’s internal inquiry and completed many


FINAL REPORT NO. OIG-14-002                                                                       33
  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

action items, but additional work is needed to complete several key action plan items and
ensure proper stewardship of funds and compliance with laws and regulations. Continued
Departmental leadership attention is essential to ensuring a culture of transparency,
accountability, and effective oversight.

Modernizing the Enterprise Financial Management System to Strengthen Financial
Oversight

The financial control problems at NWS highlight the Department’s need to implement stricter
control over funds Department-wide. A lack of centralized data systems poses reporting and
oversight challenges to the Department, such as effectively reporting financial data and
monitoring financial activity across its bureaus.

The Department and most of its bureaus use a financial system developed with aging technology
and augmented with in-house software that is increasingly difficult to maintain. This system
currently addresses core financial accounting, financial management, grants management,
acquisition management, and property management. However, limitations such as high support
costs and a lack of system integration and lack of centralized reporting capability impede the
Department’s ability to oversee and manage Department-wide financial activities.

The Department plans to replace these legacy systems—collectively known as the Commerce
Business System (CBS)—with Business Application Solutions (BAS), a commercially available
system, by FY 2018. While the Department has provided OIG with regular updates on the
status of this modernization project, significant challenges remain:

    	 The implementation timetable is aggressive. The Department plans to implement the BAS
       component that handles the bulk of financial statement reporting at NOAA, the Census
       Bureau, and NIST—the only 3 bureaus that use CBS—in stages. Its aim is to complete
       NOAA by the end of FY 2015, the Census Bureau by the end of FY 2016, and NIST by
       the end of FY 2017. This modernization affects multiple bureaus and will involve defining
       new system requirements and identifying potential changes to business operations and
       processes across the Department.

    	 The Census Bureau’s successful conversion is critical to its 2020 decennial readiness. The
       Census Bureau plans to implement BAS by the end of FY 2016. Any delays to this time
       frame could necessitate pushing back the implementation dramatically. Having a
       functional financial system in place prior to the 2020 decennial will be critical, as the
       decennial will likely monopolize available resources.

    	 The Department plans to host the system with a shared-service provider instead of hosting it
       internally. The existing system is currently hosted and managed internally at each of the
       three bureaus that utilize CBS. Following OMB’s strategy for federal financial
       management systems, the Department plans to use the Department of Transportation
       Enterprise Service Center, which has been designated a “Center of Excellence”
       provider. As the Department moves to using this external shared-service provider, it
       faces the challenge of adapting to a new accounting environment within its bureaus and a
       modified role in responding to necessary system changes.


FINAL REPORT NO. OIG-14-002                                                                         34
  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

    	 CBS modernization will result in BAS, but there will continue to be separate component systems
       that will require interfacing with BAS. For example, CBS modernization will not integrate
       the U.S. Patent and Trademark Office and National Technical Information Service
       financial systems into BAS. Also, NOAA’s grants management system, which will serve
       all bureaus, will remain a separate system—although the plan is to interface the grants
       management system with BAS. The current acquisition system will be replaced with a
       system that will be integrated into BAS.

    	 The modernization requires adequate funding. Inadequately funding the modernization
       project could result in implementation delays—and in the Department being forced to
       continue using its legacy systems for longer than anticipated. This would lead to a much
       longer delay at the Census Bureau—which, constrained by decennial responsibilities,
       would take longer to begin focusing on its migration to BAS. As a result, the Bureau
       would need to maintain both the new and old systems concurrently.

Strengthening Controls over High-Risk Contract Actions and Developing the Acquisition
Workforce

In FY 2012, the Department obligated about $2.4 billion for goods and services that include
satellite acquisitions, intellectual property protection, broadband technology opportunities,
management of coastal and ocean resources, information technology, and construction and
facilities management. Although the Department’s requirements have not diminished, available
funding resources likely will. Continuing to address high-risk contracts and maintaining a
qualified acquisition workforce will enable better management of the Department’s day-to-day
spending.

Incurring Risk from the Use of High-Risk Contracts

In July 2009, the Office of Management and Budget’s (OMB’s) Office of Federal Procurement
Policy issued contracting guidance to chief acquisition officers and senior procurement
executives. The guidance—stating that time and materials/labor hour (T&M/LH) contracts, cost-
reimbursement contracts, and noncompetitive contracting pose special risks of overspending
(see table 6)—directed agencies to reduce by at least 10 percent the use of high-risk
contracting authorities for new contract actions. For FY 2012, the Department reported that it
exceeded its goals in reducing the dollar amount of high-risk contracts, and it continues to
track its goal based on OMB’s 2009 guidance. However, our audit results indicate that a critical
challenge remains in the use of high-risk contracts such as T&M/LH contracts.




FINAL REPORT NO. OIG-14-002                                                                        35
  U.S. DEPARTMENT OF COMMERCE                                                                             OFFICE OF INSPECTOR GENERAL

                                                               Table 6. High-Risk Contracts
Type of Contract                                                            Definition                      High-Risk Factor
                                                                These contracts require
                                                                contractors to provide their best
                                                                effort to accomplish contract
                                                                objectives up to the maximum
                                                                                                     The contractor’s profit is tied to
                                                                number of hours authorized.
                                                                                                     the number of hours worked. As
T&M/LH                                                          Each hour of work authorizes a
                                                                                                     a result, these contracts pose a
                                                                contractor to charge the
                                                                                                     risk of overspending.
                                                                government an established labor
                                                                rate, which includes profit, along
                                                                with reimbursement for the
                                                                actual cost of materials used.
                                                                                                     Under this contract type, the
                                                                This type of contract provides       contractor has minimal
                                                                for payment of allowable             responsibility for the
Cost Reimbursement
                                                                incurred costs, to the extent        performance costs. There is no
                                                                prescribed in the contract.          incentive for the contractor to
                                                                                                     control costs.
                                                                                                     The government enters (or
                                                                                                     proposes to enter) into
                                                                These procurements are
                                                                                                     purchases of supplies or services
                                                                awarded to a single contractor
Noncompetitive Contracts                                                                             after soliciting and negotiating
                                                                without requiring any
                                                                                                     with only one source. There is
                                                                competition.
                                                                                                     no direct market mechanism for
                                                                                                     setting the contract price.
Source: OIG

In a report issued in November 2013,40 we reported weaknesses in the awarding and
administering of T&M/LH contracts. We found that Departmental contracting officers did not
award T&M/LH contract actions in accordance with the requirements of the Federal
Acquisition Regulation and the Commerce Acquisition Manual. T&M/LH contracts are
considered high risk because the contractor’s profit is tied to the number of hours worked. We
also noted that contract actions in our sample were incorrectly coded in the Federal
Procurement Data System (FPDS).

The Department’s challenge is to better monitor and evaluate its T&M/LH contracts through
the acquisition review board and investment review board processes, which are used to
manage the Department’s major acquisitions of goods and services. A further challenge it faces
is to improve the processes for entering accurate and complete data in FPDS. Effective
implementation of the Department’s measures will be crucial to ensuring that the Department
properly awards, administers, and reports high-risk T&M/LH contracts.



                                                            
40
  DOC OIG, November 8, 2013. The Department’s Awarding and Administering of Time-and-Materials and Labor-Hours
Contracts Needs Improvements, OIG-14-001-A. Washington, DC: OIG.


FINAL REPORT NO. OIG-14-002                                                                                                          36
  U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

Needing a Sufficiently Staffed and Qualified Acquisition Workforce

In a March 2009 memorandum,41 the President acknowledged that the federal government must
maintain the workforce needed to carry out robust and thorough oversight of contracts to help
program management achieve goals, avoid significant overcharges, and curb wasteful spending.
However, the Department’s acquisition workforce faces major challenges to its capacity and
capability to oversee and manage contracts because of budget constraints and uncertainties
affecting recruitment. Although the Department has 215 contracting officers and specialists, 15
more than projected, it could face an attrition of 70 retiring members by the end of 2014. Many
of the bureau procurement officer corps consider the potential loss of approximately one-third
of the workforce through attrition a catastrophic risk to their ability to support the
Department’s mission. To develop mid-level staff under current budget conditions, the
Department needs to continue recruitment at the entry levels and seek to retain that staff at
higher certification levels.

Addressing Grant Management Issues

OIG also provides oversight of the Department’s management of more than 70 programs
authorized to award grants or cooperative agreements. Each program has its own rules,
regulations, and eligibility requirements. For the period July 1, 2010–June 30, 2013, these
programs issued approximately 4,353 awards amounting to $6.5 billion. We review an average
of 340 finding reports a year; of those, about 7–8 percent will have significant procedural or
internal control findings.

Tightening Controls over Use of Federal Funds by Award Recipients

Grant oversight requires that recipients of awards meeting certain dollar thresholds submit
either a Circular A-133 single audit report or a program-specific audit report. These types of
awards pose particular oversight challenges for the Department. OIG continues to review these
audit reports to identify trends in findings across bureau programs, as well as to monitor
whether findings are resolved in a timely manner.

Table 7 presents averages of the single audit and program-specific audit reports that OIG
reviewed during the period July 1, 2010–June 30, 2013, the number of material findings, and
amounts of questioned costs and funds to be put to better use reported. We have noted a
problematic indicator in the Economic Development Administration’s (EDA’s) revolving loan
fund program, NTIA’s BTOP, and the National Institute of Standards and Technology’s (NIST’s)
Advanced Technology/Technology Innovation Program. The most common types of findings
across all Departmental programs involved violations of reporting requirements (e.g., deficient,
late, or unfiled reports); noncompliance with cost principles pertaining to allowable costs;
inadequate preparation of financial statements; the lack of, inadequate, or deficient internal
control policies concerning segregation of duties; and not following, lacking, or having deficient
policies and procedures on cash management. It is important that all Departmental program
and grants management offices review these findings and implement internal controls to address
                                                            
41
 The White House, Office of the Press Secretary, March 4, 2009, “Memorandum for the Heads of Executive
Departments and Agencies: Government Contracting.”


FINAL REPORT NO. OIG-14-002                                                                              37
  U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL

the root causes of the findings, which may require program or grant operations changes in
order to improve grant recipients’ compliance with laws and regulations.

          Table 7. Analysis, by Bureau, of OIG-Reviewed Single Audit Reports:
              Annual Average (from July 1, 2010, Through June 30, 2013)a

                                            Reports
                                                                                          Funds Put
                               Reports        with        Material      Questioned
               Bureau                                                                     to Better
                              Reviewed      Material      Findings        Costsc
                                                                                            Used
                                            Findingsb

               EDA               105              7           20            1,154            1,990
               NOAA               43              4           13            2,269                0
               NTIA               46              5           20            1,441                0
               NIST               76            10            23            1,045               96
                      e
               Other              72              0             0               0                0
                TOTAL            342            26            76           5, 909            2,086

              Source: OIG
              a
                The table does not include less significant procedural or internal control findings, the
              resolution of which OIG does not monitor; b material findings are those with
              questioned costs greater than or equal to $10,000 and/or significant nonfinancial
              findings; c questioned costs, shown here in thousands of dollars, are subject to change
              during the audit resolution/appeal process; d funds to be put to better use, shown here
              in thousands of dollars, are subject to change during the audit resolution/appeal
              processes; e other includes the International Trade Administration (ITA), the Minority
              Business Development Agency (MBDA), and multiple, which are single audit reviewed
              programs from more than one bureau.

To improve controls over award recipients’ use of federal funds, bureaus need to review these
single audit and program-specific audit reports and take action on the report findings.
Maintaining Focus on the Broadband Technology Opportunities Program (BTOP) Through Grant
Closeouts

With approximately $3.8 billion in grant awards, BTOP—funded by the Recovery Act—
represents the Department’s largest grant program. As of August 31, 2013, about 20 percent of
BTOP funds remain to be disbursed. As these projects near their completion dates (as of
June14, 2013, only 7 of approximately 230 projects had been closed, with another 36 in the
closeout process), the potential lingers for fraud, waste, and abuse associated with such large-
dollar-amount awards (many of which are more than $25 million). Management must remain
committed to monitoring BTOP recipient compliance with grant award terms and achievement
of intended benefits. Awards for which the grantee has requested extensions to complete
projects also merit close attention.

The audit closeout process—how the award recipient and the grants office ensure that project
activity is complete and the award recipient has met all the requirements under applicable laws,
regulations, OMB circulars, and award terms and conditions—calls for particular attention.


FINAL REPORT NO. OIG-14-002                                                                                  38
  U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL

OIG’s ongoing work indicates that the completion dates for many of the awards (112 as of
September 13, 2013) have been extended and the BTOP award closeout process (a) is taking
longer than expected, particularly with infrastructure projects and (b) could be improved by
strengthening closeout policies and procedures and ensuring the consistent implementation of
those policies and procedures in place.

Potential consequences of not strengthening the closeout process at NTIA and the grants
offices (NOAA and NIST) supporting NTIA in the implementation of BTOP include an
increased likelihood that grants are closed without (a) obtaining and reviewing all required
closeout documentation and determining that all award activity was completed and laws and
regulations were complied with or (b) ensuring that the federal government’s interest in BTOP
property was protected. In addition, the closeout process should help identify unused funds or
funds not used in compliance with grant terms—both of which must be returned to the
government. NTIA, NOAA, and NIST, in responding to our September 23, 2013, draft report,
concurred with our findings and identified improvements they had taken or were in the process
of taking to strengthen the closeout process.

Maintaining a Professionally Certified Grants Management Workforce

The quality and effectiveness of the grants management process depends on the development
and maintenance of a qualified workforce. The Department’s grants management office (GMO)
and grants program office (GPO) personnel have a fiduciary responsibility to manage resources
appropriately, with assurance that proposed work is feasible and has verifiable merit. However,
unlike acquisitions personnel, the approximately 1,119 personnel who monitor grants and
cooperative agreements do not maintain their professional education through a formal,
standardized certification program.

In October 2008, the Office of Personnel Management initiated a government-wide study to
identify critical competencies for grants management work. Based on this effort, the Grants
Policy Committee42 developed a set of competencies for grants personnel serving as officers,
government technical representatives, and program office staff. The resulting competency
model forms the foundation upon which the Department based its Grants Management
Certification Program43—which, once implemented,44 would establish policies and procedures
for certification of GMO and GPO personnel. 




                                                            
42
   The Chief Financial Officers Council, which represents the 24 largest federal agencies, established a Grants Policy
Committee to lead implementation of Public Law 106-107. With OMB providing oversight and technical assistance,
the Committee’s workgroups of agency staff work to accomplish the grants streamlining required by the
legislation.
43
   The GMCP develops and maintains a Departmental grants workforce through a formal, standardized grants
education and certification program. Through the program, the grants workforce learns federal and Departmental
requirements and regulations, as well as grants management best practices.
44
   The implementation of this important initiative may be delayed if bureaus do not have adequate funds for
training.



FINAL REPORT NO. OIG-14-002                                                                                          39
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Acronym List 

ACS              American Community Survey

AIA              America Invents Act

BAS              Business Application Solutions

BIS              Bureau of Industry and Security

BTOP             Broadband Technology Opportunities Program

CBS              Commerce Business System

CIO              Chief Information Officer

CPEX             Census Program Evaluation and Experiments

DOC CIRT         Department of Commerce Computer Incident Response Team

ECMO             Enterprise Cybersecurity and Monitoring Operations

EDA              Economic Development Administration

ESOC             Enterprise Security Oversight Center

FirstNet         First Responder Network Authority

FMC              fishery management council

FPDS             Federal Procurement Data System

FY               fiscal year

GMO              grants management office

GOES-R           Geostationary Operational Environmental Satellite–R series

GPO              grants program office

GSS              Geographic Support System

HCHB             Herbert C. Hoover Building

IT               information technology

ITA              International Trade Administration



FINAL REPORT NO. OIG-14-002                                                                  40
  U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

JPSS             Joint Polar Satellite System

MAF              Master Address File

MHz              megahertz

NASA             National Aeronautics and Space Administration

NEI              National Export Initiative

NIST             National Institute of Standards and Technology

NMFS             National Marine Fishery Service

NOAA             National Oceanic and Atmospheric Administration

NPP              National Polar-orbiting Partnership

NTIA             National Telecommunications and Information Administration

NWS              National Weather Service

OIG              Office of Inspector General

OMB              Office of Management and Budget

PSBN             Public Safety Broadband Network

R&T              research and testing

RCE              request for continued examination

T&M/LH           time and materials/labor hour

TIC              Trusted Internet Connection

TIGER            Topologically Integrated Geographic Encoding and Referencing

USPTO            U.S. Patent and Trademark Office




FINAL REPORT NO. OIG-14-002                                                                 41
  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL


Appendix A: Related OIG Publications 

This list presents OIG’s past and current work related to FY 2014’s top management
challenges. These products can be viewed at www.oig.doc.gov. If the product contains
information that cannot be released publicly, a redacted version or an abstract will be available
on the website.

Challenge 1: Strengthen Commerce Infrastructure to Support the Nation’s
Economic Growth

    	 USPTO Successfully Implemented Most Provisions of the America Invents Act, but Several
       Challenges Remain (OIG-13-032-A, September 30, 2013)
    	 U.S. Export Assistance Centers Could Improve Their Delivery of Client Services and Cost
       Recovery Efforts (OIG-13-010-I, November 30, 2012)

Challenge 2: Strengthen Oversight of National Oceanic and Atmospheric
Administration (NOAA) Programs to Mitigate Potential Satellite Coverage Gaps,
Address Control Weaknesses in Accounting for Satellites, and Enhance Fisheries
Management

    	 Audit of Geostationary Operational Environmental Satellite-R Series: Comprehensive Mitigation
       Approaches, Strong Systems Engineering, and Cost Controls Are Needed to Reduce Risks of
       Coverage Gaps (OIG-13-024-A, April 25, 2013)
    	 IG’s Testimony on Commerce Department’s FY 2014 Budget Request: Senate 

       Appropriations Committee (OIG-13-023-T, April 11, 2013) 

    	 Results of Commerce OIG’s Online Survey of Fishery Management Council Members
       and Staff (OIG-13-022-I, April 5, 2013)
    	 Deputy IG’s Testimony on Top Challenges for Science Agencies: House Science, Space,
       and Technology Committee (OIG-13-018-T, February 28, 2013)
    	 NOAA Needs to Continue Streamlining the Rulemaking Process and Improve Transparency and
       Consistency in Fisheries Management (OIG-13-011-I, January 16, 2013)

Challenge 3: Continue Enhancing Cybersecurity and Management of Information
Technology Investments

    	 Malware Infections on EDA’s Systems Were Overstated and the Disruption of IT Operations
       Was Unwarranted (OIG-13-027-A, June 26, 2013)
    	 USPTO Deployed Wireless Capability with Minimal Consideration for IT Security (OIG-13-014-
       A, February 1, 2013)




FINAL REPORT NO. OIG-14-002                                                                        42
  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

Challenge 4: Exercise Strong Project Management Controls over 2020 Census
Planning to Contain Costs

    	 IG’s Testimony on Top Management Challenges Facing the Department of Commerce in
       FY 2013: House Appropriations Committee (OIG-13-019-T, March 5, 2013)
    	 Letter to Senator Coburn re: Improving the 2020 Census Through Administrative
       Records and Geospatial Information (OIG-13-002-M, October 25, 2012)

Challenge 5: Continue to Foster a Culture of Management Accountability to
Ensure Responsible Spending

    	 The Department’s Awarding and Administering of Time-and-Materials and Labor-Hours

       Contracts Needs Improvements (OIG-14-001-A, November 8, 2013) 

    	 Status of Departmental Actions to Correct NWS Mismanagement of Funds (OIG-13-029-I,
       September 13, 2013)
    	 Nonfederal Audit Results for the 6-Month Period Ending June 30, 2013 (OIG-13-030-M,
       September 9, 2013)
    	 Monitoring of Obligation Balances Needs Strengthening (OIG-13-026-A, June 18, 2013)
    	 Internal Controls for Purchase Card Transactions Need to Be Strengthened (OIG-13-025-A,
       May 2, 2013)
    	 FY 2012 Compliance with Improper Payment Requirements (OIG-13-020-I, March 15, 2013)
    	 Principal Asst. IG’s Testimony on Broadband Stimulus: House Energy and Commerce
       Committee (OIG-13-017-T, February 27, 2013)
    	 Fourth Annual Assessment of the PSIC Grant Program (OIG-13-016-A, February 22, 2013)
    	 Nonfederal Audit Results for the 6-Month Period Ending December 31, 2012 (OIG-13-
       015-M, February 11, 2013)
    	 Proper Classification and Strengthened Monitoring of Subrecipients Are Needed for the 

       Broadband Technology Opportunities Program (OIG-13-013-A, January 31, 2013) 

    	 Letter to Chairmen Walden and Shimkus in response to their request to review the
       National Telecommunications and Information Administration’s (NTIA’s) Broadband
       Technology Opportunities Program (BTOP) grant awarded to the Executive Office of
       the State of West Virginia (OIG-13-012-I, January 23, 2013)
    	 Quarterly Conference Reporting Processes Need Improvement (OIG-13-001-I, October 17,
       2012)




FINAL REPORT NO. OIG-14-002                                                                      43
  U.S. DEPARTMENT OF COMMERCE                                                                  OFFICE OF INSPECTOR GENERAL


Appendix B: Comparison Between FY 2013
and FY 2014 Challenges
                            FY 2014                                                      FY 2013
Strengthen Commerce infrastructure to support the                  Stimulate economic growth in key industries, increase
nation’s economic growth:                                          exports, and enhance stewardship of marine fisheries:
    Promoting U.S. exports while protecting national                 Growth in manufacturing, intellectual property, and
     security interests                                                wireless industries
    Enhancing economic growth through intellectual                   Export promotion and regulation
     property and wireless initiatives                                Protection and promotion of marine fisheries
Strengthen oversight of National Oceanic and
Atmospheric Administration (NOAA) programs to
mitigate satellite coverage gaps, address control                  Increase oversight of resources entrusted by the public
weaknesses in accounting for satellites, and enhance               and invest for long-term benefits:
fisheries management:                                                 Internal controls and oversight
    Enhancing weather satellite development and mitigating           Investment for long-term benefits
     potential coverage gaps                                          Design changes to contain 2020 decennial costs
    Addressing material weakness over satellite accounting
    Enhancing fisheries management
Continue enhancing cybersecurity and management of
information technology (IT) investments:
    Establishing a robust capability to respond to cyber
     incidents                                                     Strengthen security and investments in IT:
    Continuing sustainable implementation of enterprise                Addressing persistent IT security weaknesses
     cybersecurity initiatives                                          Incident response and recovery capabilities
    Preserving the CIO’s oversight responsibility of satellite-        IT governance for portfolio management
     related IT investments                                             Oversight of IT investments
    Continuing vigilant oversight of IT investments
    Maintaining momentum in consolidating commodity IT
     to cut costs
                                                                   Implement framework for acquisition project
Exercise strong project management controls over
                                                                   management and improve contract oversight:
2020 Census planning to contain costs:
                                                                        Planned framework for acquisition management
   Ensuring timely design decision making
                                                                        Oversight of high-risk contracts
   Focusing on human capital management, timely
                                                                        Acquisition workforce maintenance
    research, and testing implementation
                                                                        Implementation of suspension and debarment program
Continue to foster a culture of management
accountability to ensure responsible spending:
   Responding to concerns of mismanagement and ethical            Reduce risks of cost overruns, schedule delays, and
    violations                                                     coverage gaps for NOAA’s satellite programs:
   Implementing stricter controls over funds                           JPSS capabilities, schedule, and costs
   Modernizing the enterprise financial management                     Leadership and governance structure over JPSS
    system to strengthen financial oversight                            Weather forecasting during JPSS coverage gaps
   Strengthening controls over high-risk contract actions              Risks associated with GOES-R development
    and developing the acquisition workforce
   Addressing grant management issues




FINAL REPORT NO. OIG-14-002                                                                                                  44
  U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL


Appendix C: Management Response to OIG
Draft Report




011200000167



FINAL REPORT NO. OIG-14-002                           45
